<html>
<title> - LEGISLATIVE HEARING ON A DISCUSSION DRAFT BILL, S. _, NUCLEAR WASTE POLICY AMENDMENTS ACT OF 2019</title>
<body><pre>[Senate Hearing 116-29]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-29

  LEGISLATIVE HEARING ON A DISCUSSION DRAFT BILL, S. _, NUCLEAR WASTE 
                     POLICY AMENDMENTS ACT OF 2019

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 1, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


        Available via the World Wide Web: http://www.govinfo.gov             
            
               
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-643 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="780817381b0d0b0c101d1408561b171556">[email&#160;protected]</a>                       
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 1, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Cortez Masto, Hon. Catherine, U.S. Senator from the State of 
  Nevada.........................................................     4
    Prepared statement...........................................     7
Rosen, Hon. Jacky, U.S. Senator from the State of Nevada.........    11
    Prepared statement...........................................    13
O'Connor, Timothy, Senior Vice President and Chief Nuclear 
  Officer, Xcel Energy...........................................    17
    Prepared statement...........................................    19
    Responses to additional questions from:
        Senator Barrasso.........................................    32
        Senator Carper...........................................    34
        Senator Braun............................................    36
O'Donnell, Anthony J., Commissioner, Maryland Public Service 
  Commission.....................................................    38
    Prepared statement...........................................    40
    Responses to additional questions from:
        Senator Barrasso.........................................    50
        Senator Carper...........................................    57
        Senator Braun............................................    60
Fettus, Geoffrey H., Senior Attorney, Climate and Clean Energy 
  Program, Natural Resources Defense Council.....................    61
    Prepared statement...........................................    63
    Responses to additional questions from:
        Senator Barrasso.........................................    79
        Senator Carper...........................................    85
        Senator Markey...........................................    92

 
  LEGISLATIVE HEARING ON A DISCUSSION DRAFT BILL, S. _, NUCLEAR WASTE 
                     POLICY AMENDMENTS ACT OF 2019

                              ----------                              


                         WEDNESDAY, MAY 1, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Cramer, Braun, 
Rounds, Boozman, Ernst, Cardin, Gillibrand, Markey, Duckworth, 
and Van Hollen.
    Also present: Senators Cortez Masto and Rosen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    This morning, we will receive testimony on discussion draft 
legislation that is titled The Nuclear Waste Policy Amendments 
Act of 2019.
    America launched the Manhattan Project to win World War II. 
The project was unprecedented in time and scale, and in 
urgency. It also produced nuclear waste, which our country is 
still managing 75 years later.
    President Eisenhower launched the Atoms for Peace program 
in 1953. This established the United States as the global 
leader for the peaceful civilian use of nuclear energy. America 
continues to generate the most nuclear power in the world.
    Radioactive material is also used for life saving medical 
procedures, for oil and gas production, and for numerous other 
industrial applications. With immense benefits of nuclear 
energy comes a responsibility to permanently and safely dispose 
of the byproduct material.
    Throughout the 1960s and 1970s, the Federal Government 
studied dozens of locations to identify a suitable nuclear 
waste disposal site. These sites were located in 36 States 
around the country, including several represented on this 
Committee, including Indiana, New York, South Dakota, Illinois, 
North Dakota, Alabama, Maryland, Massachusetts, Vermont, and my 
home State of Wyoming.
    In 1982, Congress passed the Nuclear Waste Policy Act. The 
Act formally established a comprehensive nuclear waste 
management policy. In doing so, Washington made a promise to 
the American people. The Department of Energy would dispose of 
spent nuclear fuel by 1998. Ratepayers began paying Washington 
to fund this program. And over the last 35 years, ratepayers 
have paid more than $40 billion to keep their end of the deal.
    Maintaining our nuclear weapons deterrence and powering 
America's submarines and aircraft carriers also creates nuclear 
waste. The Act also provided for the safe disposal of this 
material. From 1982 to 1987, the department conducted multiple 
in depth scientific and technical analyses of targeted disposal 
sites. The Yucca Mountain site, located on Federal Government 
owned land in Nevada, consistently ranked at or near the top of 
those scientific studies. The site is located adjacent to an 
8,400 square mile area of U.S. Government owned land. The area 
is larger than the State of Massachusetts.
    In 1987, Congress selected the Yucca Mountain site to host 
the Nation's first disposal site. After 15 years of detailed 
engineering and scientific work, President Bush formally 
recommended the site in 2002. The State of Nevada officially 
objected to the recommendation. With a bipartisan vote, 
Congress overrode the State's veto. All of this followed the 
process established by the Nuclear Waste Policy Act.
    In 2008, the Department of Energy submitted the Yucca 
Mountain license application to the Nuclear Regulatory 
Commission. The Commission staff conducted its own technical 
analysis known as the Safety Evaluation Report. The five 
volume, 1,900 page independent report found the department's 
Yucca Mountain design would meet all regulatory requirements.
    Today, Washington is over 20 years late in keeping its 
word. As a result, American taxpayers are footing the bill. 
Taxpayers pay over $2 million per day in legal costs. 
Cumulatively, taxpayers will be liable for over $35 billion. 
This number increases with every day that Washington delays. We 
can't walk away from the law of the land. We can't start over 
and let another 40 years pass to solve this challenge.
    The discussion draft before us today is a solution. It is 
nearly identical to the text of legislation passed by the House 
of Representatives last year by a vote of 340 to 72. Over 60 
percent of the House Democrats voted for that bill. The draft 
makes critical reforms to our Nation's nuclear waste management 
policy.
    It authorizes the Department of Energy to contract with 
private companies for interim storage of spent nuclear fuel. It 
provides the State of Nevada the opportunity to present their 
scientific opposition to the use of the Yucca Mountain site to 
independent judges in a legal proceeding. It reforms the 
program's financing mechanisms to protect ratepayers. And it 
allows host communities to partner with the Federal Government 
to receive benefits.
    Nuclear energy is an essential part of our energy 
portfolio. It is also critical to reducing carbon dioxide 
emissions. If we are serious about addressing climate change, 
we must be serious about preserving and expanding nuclear 
energy use. That means keeping our commitment to the 121 
communities in 39 States where nuclear waste is located. Safely 
disposing of nuclear waste is a national problem and requires a 
national solution.
    Just as our Committee did with legislation promoting 
advanced nuclear technologies last year, I would like to find 
bipartisan agreement to move legislation to get our nuclear 
waste program back on track. This morning's hearing is the 
first step in that process.
    I will now turn to my friend and Ranking Member, Senator 
Carper, for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Welcome to our witnesses, it is a nice way to start our 
day.
    Thank you, Mr. Chairman, for convening this hearing. As you 
know, I think any actions dealing with our Nation's spent fuel 
is something our Committee ought to discuss and should address.
    Our Nation's nuclear power plants are currently storing 
their spent nuclear fuel in a way that most of us think is safe 
and reliable. I have been told that the technology we have to 
store spent nuclear fuel enables that fuel to be stored safety 
for anywhere between 50 and 100 years, maybe longer.
    Having said that, our nuclear reactors were not designed to 
keep spent fuel onsite forever. So as our reactors age and are 
decommissioned, it is imperative that we find an alternate 
resting place for our nuclear spent fuel.
    Almost 40 years ago, Congress passed, as we just heard, the 
Nuclear Waste Policy Act of 1982 to help find a final resting 
place for our Nation's high level nuclear waste from our 
defense programs and from our nuclear energy reactors. Congress 
felt this action would move our country toward a deep mined 
geological nuclear waste repository. But after years of study 
and debate, we find ourselves at a dead end, with no 
functioning nuclear waste repository, and with nuclear spent 
fuel building up at our Nation's nuclear power plants. I 
appreciate our Chairman's bringing forth a discussion draft on 
how we can restart this critical conversation.
    Before Congress takes any actions on nuclear waste, 
however, we need to be sure that we are not going to repeat the 
mistakes from our past. If we don't, our country may well find 
itself 30 years from now in the same dead end situation that we 
face today.
    I believe that one of the biggest mistakes we made in 
Congress, when I served in the U.S. House, was not obtaining 
consent from all parties on the location of a disposal site. 
Somehow, we have learned how to get communities across the 
country to compete for the siting of prisons in our Nation, but 
we have not yet learned how to get communities to compete for 
disposal of our nuclear spent fuel.
    As a recovering Governor, I believe that any actions we 
take on nuclear waste must include a consent based approach 
that fosters a meaningful partnership between Federal, local, 
and State leaders. We must also have open communications with 
the people who live and work in those communities.
    We don't have to solve all the nuclear waste issues today. 
I know we are not going to. But I believe there are actions we 
can and must take to make much needed progress on this issue. 
My hope is that our Committee can find common ground on 
legislation with the input of our witnesses today to do just 
that.
    I had the pleasure of meeting yesterday with Senator Rosen, 
and one of the things we talked about was a trip I took to 
France a number of years ago, not for tourism purposes, but to 
try to learn what they are doing in that country with their 
spent fuel. They don't regard it as a waste product; they 
regard it as a resource. One of the things they try to do is 
derive additional energy from the spent fuel rods. Usually when 
we finish, we pull a lot of spent fuel rods out of nuclear 
plants in this country. They have plenty of energy left; we are 
just not going to harvest that energy.
    One of the things they are pretty good at in France, where 
they get 80 percent of their energy from carbon-free nuclear 
power, one of the things they are pretty good at is trying to 
get as much energy out of them as they can.
    My State is a little State. When I was privileged to be the 
Governor for 8 years, one of the toughest issues was siting 
prisons. We don't have a lot of land; about 50 miles wide, 100 
miles long. Most of our people live in the northern part of the 
State. Siting a prison for men, a prison for women, very 
difficult issue.
    What we found out is that other States were happy to have 
our inmates. It was a business opportunity for them. They built 
prisons, they operated them, some of them very well, some of 
them not so well. So I like to say--if somehow one of the 
toughest issues I faced as Governor, siting prisons--if other 
States are willing to say, hey, wait, wait, maybe your problem, 
that is something we would like to do for you, to help you 
with. We have to be smart enough to figure out how to do 
something like that with respect to spent fuel in this country.
    I think one of the big mistakes we made is when we passed 
legislation back in the 1980s that we talked about here today, 
we did not incent States to actually line up and say, you know, 
this could be good jobs. It's a clean business, clean industry, 
and would actually help solve an immediate challenge for our 
Nation; we should be smart enough to incent other States to do 
that. I think we are going to have a second chance. We don't 
always have second chances in life. I think we may have a 
second chance here, and we need to do it right and make sure 
that the incidents line up as they should.
    Thank you very much.
    We look forward to hearing from our friends.
    Senator Barrasso. Thank you very much, Senator Carper.
    We would now like to invite the two Senators from Nevada to 
testify and share their views. We will first start with Senator 
Catherine Cortez Masto and then turn to Senator Jacky Rosen.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Cortez Masto. Good morning, Chairman Barrasso and 
Ranking Member Carper, and members of the Committee. I 
appreciate the opportunity to sit before you today, along with 
my Nevada colleague, Senator Jacky Rosen, to discuss the 
legislative draft before you, and our opposition to Yucca 
Mountain.
    I last sat at this table in October 2007--that was 12 years 
ago--as the Attorney General for the State of Nevada. At that 
time, I provided testimony before the Committee on this very 
topic. For over 30 years, many in Congress have been trying to 
force a repository facility on Nevada, despite the fact that 
Nevada does not generate or consume nuclear energy, and that 
Yucca Mountain is a seismically and geologically unfit site to 
store this dangerous material.
    A vast majority of Nevadans opposed Yucca Mountain when the 
site was selected as the Nation's sole repository back in 1987, 
and they continue to do so today. Over the years, this 
Committee has heard from both Republican and Democratic 
Governors and members of the Nevada congressional delegation, 
as well as environmental advocates and our State's prominent 
travel, tourism, and outdoor recreation industries, all of whom 
are united in their opposition to Yucca Mountain.
    Today, I would like to dispel a few misconceptions. Many 
believe Yucca Mountain is settled science, that Yucca Mountain 
was selected through a reasoned and thorough process, or that 
Yucca Mountain is already equipped to receive nuclear waste. 
Well, they are wrong. In 1982, Congress passed the Nuclear 
Waste Policy Act, creating a structure for a final repository 
siting. This structure established a schedule for selection of 
a first repository to be made among three candidates in a 
western State, followed by the selection of a second repository 
from a set of five candidates in an eastern State, along with 
consideration of an interim site to be located at Oak Ridge, 
Tennessee.
    It also allowed all States to have a voice in this process 
by granting them a veto. And the amount of waste to be stored 
at the first repository was capped at 70,000 metric tons, as a 
compromise to ensure that not just one facility would be the 
recipient of the Nation's waste, knowing that much more than 
this amount would ultimately be required for final repose in 
the future.
    But faced with political pressure, the Reagan 
administration indefinitely postponed the search for an eastern 
second repository site in 1986, unraveling a key compromise of 
the 1982 law. Then later in 1987, Congress dropped the 
scientific based compromise process; it nullified the selection 
of an interim site at Oak Ridge, Tennessee, and arbitrarily 
designated Yucca Mountain as the sole site for a repository, 
despite strong opposition from the State of Nevada.
    I ask you to put yourselves in the shoes of Nevadans. 
Imagine having nuclear waste sent to your communities without 
your input or without a fair process. That is why Nevadans have 
been united in the fight to ensure that not an ounce of nuclear 
waste makes it to Yucca Mountain.
    Mr. Chairman, people often falsely think that Yucca 
Mountain is ready to receive waste. The Federal Government has 
spent $19 billion with little to show in result. There are no 
waste disposal tunnels, there is no waste handling facilities 
there, there is no monitoring infrastructure, no containment 
infrastructure, there is no railroad infrastructure needed for 
transporting waste into the site. All that exists at Yucca 
Mountain now is a 5 mile exploratory hole in the ground to 
study the geology and hydrology of the mountain.
    Yucca Mountain is also a national security threat. The 
Nevada Test and Training Range, which is directly adjacent to 
Yucca Mountain, is home to 75 percent of Air Force live 
munitions testing, making it the largest air and ground 
military training space in the country. According to former Air 
Force Secretary Heather Wilson, if Yucca Mountain were to ever 
hold nuclear waste, it would directly impact the readiness of 
our military by harming the ability of our Nation's military to 
train for combat.
    Yucca Mountain is a scientifically unsuitable site for a 
nuclear repository. It sits on fault lines. In 1996, a 5.6 
magnitude earthquake damaged the Yucca Mountain project field 
operations center. Imagine what would happen if there was a 
stronger earthquake.
    Numerous studies have also found that the groundwater 
around the repository is at risk of contamination, affecting 
communities across Nevada and California.
    Mr. Chairman, all we are asking today is that Nevada is 
treated fairly, that it is treated the same as every other 
State. Congress should not and cannot shove nuclear waste down 
our throats. All States must be given parity in order to find a 
solution that works.
    That is why Senator Rosen and I have introduced alternative 
legislation that guarantees every State has a seat at the 
table. Our bill, Senate Bill 649, the Nuclear Waste Informed 
Consent Act, would require the Federal Government to obtain the 
consent of potential host States before moving forward.
    I would like to thank EPW Committee members Senators 
Booker, Gillibrand, and Sanders for co-sponsoring our 
legislation. The current bill before this Committee continues 
on an unworkable path that only delays the country from finding 
a solution to our nuclear waste dilemma.
    So why waste decades and billions of taxpayer dollars when 
we can work together to come up with a viable solution to our 
nuclear storage problem? I stand ready to work with the members 
of this Committee and the rest of my colleagues in the Senate 
to find a sustainable solution that ensures all parties have a 
voice in this process. So I want to thank you for the 
opportunity to be here today.
    I would also like to submit for the record an analysis by 
Bob Halstead, who works with the Nevada Agency for Nuclear 
Projects, and it is his overview and analysis of the discussion 
draft of the Nuclear Waste Policy Amendments Act of 2019 and 
the concerns that we have as the State of Nevada with the 
current draft.
    Thank you.
    [The prepared statement of Senator Cortez Masto follows. 
The other referenced information was not received at time of 
print.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Barrasso. Thank you very much, and without 
objection, that will certainly be submitted for the record.
    Senator Rosen.

                STATEMENT OF HON. JACKY ROSEN, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Rosen. Thank you, Chairman Barrasso, Ranking Member 
Carper, everyone here on the Committee.
    I really appreciate the opportunity to testify here today, 
along with my senior Senator, Catherine Cortez Masto. Let me 
make one thing clear: Nevadans wholeheartedly oppose becoming 
the Nation's nuclear dumping ground.
    For over 30 years, the State of Nevada and local 
communities have rejected the misguided Yucca Mountain project 
on safety, public health, national security, and environmental 
grounds. In fact, the State has filed over 200 contentions 
against the Department of Energy's license application, 
challenging the adequacy of DOE's environmental impact 
assessments.
    Nevada's full bipartisan delegation opposes this bill, as 
do the previous Republican Governor, Brian Sandoval, and the 
current Democratic Governor, Steve Sisolak. I would like to 
submit for the record Governor Sisolak's letter in opposition 
to Yucca Mountain, please.
    Senator Barrasso. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Rosen. Thank you.
    As we have known for decades, numerous scientific studies 
have deemed Yucca Mountain unsafe, based on the fact that the 
site, as Senator Cortez Masto said, is seismically active and 
sits on an aquifer. Moreover, this particular legislation 
designating Yucca Mountain as the Nation's dumping ground would 
require transporting over 110,000 metric tons--110,000 metric 
tons of radioactive waste. This number is 40,000 more metric 
tons than what was outlined in the original Nuclear Waste 
Policy Act, and much of it would travel by rail and road 
through the heart of Las Vegas and dozens of other major cities 
across this country.
    So let's put this in perspective. We are talking about 
shipping roughly one to three trains or one to two truck 
shipments across this country every week for 50 years from 76 
shipping sites. Every week for 60 years, three loads. That 
nuclear waste would be transported weekly through a total of 44 
States, including many that are represented on this Committee 
today, Wyoming, Oklahoma, West Virginia, Indiana, Iowa, Idaho, 
and all the rest.
    It is hard to imagine that shipping over 5,000 truck casts 
of high level nuclear waste over a span of 50 years won't 
result in at least radiological release somewhere in this 
country. Severe transportation accidents involving these 
shipments threaten the health and safety of tourists and 
individuals who live along the proposed routes all across this 
country and would cost billions of dollars in cleanup costs and 
related economic losses.
    So I ask the members here today: is this a risk you are 
willing to take?
    In addition, Yucca Mountain represents a serious challenge 
for our national security. The Yucca Mountain site is adjacent 
to the Nevada Test and Training Range. That is the crown jewel 
of our Air Force. This Air Force training site provides the 
largest air and ground military training space in the 
contiguous United States, without interference from commercial 
aircraft. It is also home to 75 percent of stateside Air Force 
live munitions.
    Military leaders have said the Yucca Mountain Project can 
directly impact our country's ability to defend itself. And 
there are no nuclear waste transportation routes across the 
training site that would not impact these training exercises. 
So does it really make sense to transport and store our 
Nation's nuclear waste right next to a military bombing range? 
Not only is this bill bad for the safety of millions of 
Americans and our national security, but this bill also 
proposes a radical change to our Nation's approach to nuclear 
waste management.
    The original Nuclear Waste Policy Act from the 1980s calls 
for two repositories, one to ensure regional equity and the 
other to address technical redundancy. This bill does away with 
that by eliminating the current requirement for progress on the 
second repository, placing the entire burden on Nevada. And we 
don't even produce nuclear energy.
    Finally, once again, this bill further takes away Nevada's 
voice by moving forward with the Yucca Mountain project without 
a consent based process in place. Nevada does not want nor has 
ever wanted to store nuclear waste at Yucca Mountain. What this 
bill is taking away from us is our founding principle of State 
self-determination and liberty and sending us to a place where 
all States are not equal under the law.
    As Senators, we are here to represent the voices of our 
constituents. I don't think any Senator would think it is OK 
for other Senators to take away the voice of their State.
    So Nevada needs a voice in this process, period. This is 
nothing more than an attempt to take away Nevada's States' 
rights. So with all due respect, this Committee's legislation 
ignores the environmental, safety, and security concerns of 
Nevadans who would be forced to store nuclear waste they had no 
role in creating.
    I therefore urge the Committee to stop wasting billions of 
dollars of taxpayer money by resurrecting a project that has 
been dead for over 30 years, and instead identify viable 
alternatives for the long term repository in areas that are 
proven safe and whose communities consent to that storage.
    I really appreciate the opportunity to testify today. Thank 
you.
    [The prepared statement of Senator Rosen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Well, thank you to both of you. We 
appreciate your attendance and your participation and your 
thoughtful testimony. You are welcome to stay for the hearing. 
I know you have busy schedules. Thank you very much for being 
here with us today.
    I would like to now call our second panel of witnesses. 
That will be Mr. Tim O'Connor, the Chief Nuclear Officer of 
Xcel Energy; Mr. Anthony O'Donnell, the Maryland Public Service 
Commissioner on behalf of the National Association of 
Regulatory Utility Commissioners; and Mr. Geoffrey Fettus, who 
is the Senior Attorney for the Natural Resources Defense 
Council.
    As you are coming up, I would like to point out that a 
majority of Nevada counties have passed resolutions in support 
of completing the Nuclear Regulatory Commission safety review 
of the Yucca Mountain site. Nye County is the host community 
for the repository. That county has a long record of support 
for the program.
    I ask unanimous consent to enter into the record a letter 
from Nye County, Nevada, County Commissioner Leo Blundo. The 
letter requests Congress support the completion of the Yucca 
Mountain licensing proceeding.
    Without objection, that will be submitted into the record.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. So I welcome our witnesses. I would like 
to remind you that your full written testimony will be made 
part of the official hearing today. Please try to keep your 
statements to 5 minutes, so that we may have time for 
questions. I look forward to hearing your testimony.
    If we could start with Mr. O'Connor.

STATEMENT OF TIMOTHY O'CONNOR, SENIOR VICE PRESIDENT AND CHIEF 
                  NUCLEAR OFFICER, XCEL ENERGY

    Mr. O'Connor. Chairman Barrasso, Ranking Member Carper, and 
distinguished members of the Committee, thank you for inviting 
me to testify before you today.
    My name is Tim O'Connor, and I am the Senior Vice President 
and Chief Nuclear Office for Xcel Energy, a public utility 
holding company serving 3.6 million electric customers and 2 
million natural gas customers. We are headquartered in 
Minneapolis, and we serve parts in eight western and midwestern 
States.
    I welcome the opportunity to share with you nuclear 
energy's critical importance to the future of reliable, carbon-
free generation and to discuss the importance of breaking the 
stalemate on used fuel policy, which has left used fuel stored 
at sites across the country in violation of the Federal 
Government's obligation to take possession of the fuel for 
permanent disposal.
    Xcel Energy operates two nuclear plant sites in Minnesota, 
a total of three reactors. Our plants are Prairie Island and 
Monticello, which produce a combined output of 1,771 megawatts. 
We operate one of our plants next to the Prairie Island Indian 
Community--our neighbors, who have a long, deep history in the 
area and strongly oppose the continued presence of used fuel.
    Mr. Chairman, with me today is Cody Whitebear, a member of 
the Prairie Island Community, who is here with me today for 
this hearing. We partner frequently with the Prairie Island 
Indian Community to advocate for public policy that will result 
in moving used fuel as quickly as possible. Our nuclear plants 
have excellent operational records due to the hard work and 
dedication of hundreds of men and women who work onsite, 
including many veterans.
    These units generate electricity 24 hours a day, 7 days a 
week, through extreme weather conditions such as the recent 
polar vortex. I also take great pride in the fact that these 
plants operate without producing any greenhouse gas emissions 
and play a key role in Xcel Energy's carbon reduction strategy. 
We have already achieved a 38 percent system-wide reduction of 
carbon emissions from 2005 levels, but we aim to go much 
further.
    Our CEO, Ben Fowke, recently announced that we will reduce 
our carbon emissions 80 percent by 2030, and to be a goal of 
100 percent carbon-free by 2050. In order to do this while 
maintaining both affordability and reliability, we need zero 
carbon dispatchable resources like nuclear energy.
    However, the continued political stalemate around nuclear 
used fuel needlessly creates uncertainty about the future of 
this resource. While the nuclear energy industry has a long 
record of safely storing used fuel onsite, this situation is 
not what was promised to the communities we serve. As required 
under the Nuclear Waste Policy Act, our customers paid into the 
Nuclear Waste Fund for decades a total of $452 million. Now the 
Nuclear Waste Fund balance sits at $41 billion, and customers 
nationwide, quite frankly, have received nothing.
    The Federal Government has obligated to develop a permanent 
repository and begin moving fuel by 1998. As we all know, the 
Federal Government has not lived up to its end of the bargain. 
On top of this, court orders require the Federal Government to 
reimburse utilities for ongoing costs associated with storing 
used fuel onsite. This adds to the Federal liability of $800 
million a year for breaching its contractual obligation to take 
the used fuel. And as you said, that is an amazing $2.2 million 
per day.
    We urge Congress to appropriate the funding necessary to 
allow DOE and the NRC to adjudicate the licensing application 
for a permanent repository. DOE has demonstrated through 
comprehensive scientific environmental analysis that Yucca 
Mountain can safely serve as a permanent repository for used 
fuel. At the same time, we also support the development of 
consolidated interim storage. A consolidated interim storage 
project could act as a temporary solution for communities and 
plants all across the country that are currently storing used 
fuel.
    Moreover, the transportation of used fuel is safe, and 
again, is a well established practice. In fact, it has been 
safely transported across the U.S. for over 50 years. 
Nonetheless, the industry is still doing more to repair it.
    I am proud to announce that on May 21st, Xcel Energy will 
host an industry with NEI nuclear transport exercise at our 
Prairie Island facility that will discuss and validate the 
steps necessary to move fuel from a nuclear plant to an interim 
storage site. Organizations who are critical partners for the 
safe fuel transportation will participate and demonstrate their 
role.
    I can assure the members of this Committee that spent fuel 
has been and will continue to safely be transported.
    We applaud the Committee putting forward the discussion 
draft of legislation that would advance both permanent and 
interim storage. Not only would it restart the license 
application process for a permanent repository at Yucca 
Mountain, but it would simultaneously develop centralized 
interim storage. We strongly supported similar legislation when 
it was considered and approved by the House of Representatives 
during the last Congress. This bill recognizes the financial 
contributions made by electricity consumers across the Nation 
and assures that the nuclear waste fee is not turned back on 
until a decision is made on the Yucca Mountain license.
    We hope the Committee will consider this legislation this 
year. To conclude, while nuclear fuel is safe and secure at our 
plant sites, the fact that it remains in Minnesota rather than 
stored at a permanent repository is a political--not a 
scientific or engineering--failure, one that costs consumers 
and taxpayers millions of dollars every year. It is long past 
time for Congress to act.
    Thank you again for this opportunity to testify. I will be 
happy to answer any questions.
    [The prepared statement of Mr. O'Connor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Mr. O'Connor. We 
appreciate your thoughtful testimony. Thank you for being here.
    Mr. O'Donnell.

              STATEMENT OF ANTHONY J. O'DONNELL, 
        COMMISSIONER, MARYLAND PUBLIC SERVICE COMMISSION

    Mr. O'Donnell. Good morning, Chairman Barrasso, Ranking 
Member Carper, and members of the Committee. Thank you for this 
opportunity.
    I am Tony O'Donnell, Commissioner on the Maryland Public 
Service Commission. I also serve as the Chairman of the 
National Association of Regulatory Utility Commissioners, 
NARUC, Subcommittee on Nuclear Issues and Waste Disposal.
    NARUC's member commissions ensure the safe, reliable, and 
affordable delivery of essential electric utility service to 
your constituents here in D.C. and every U.S. State and 
territory. The success of the Federal waste management program 
already funded by the consumers of electricity from nuclear 
power plants at 40-plus billion dollars is necessarily of keen 
interest.
    At the outset, I want to point out the obvious. February 
marked 21 years since the Department of Energy defaulted on its 
obligation to begin disposing of spent nuclear fuel as per the 
Nuclear Waste Policy Act. Federal action is more than 20 years 
past due. Congress must act now.
    Every year of inaction costs your constituents, the 
American taxpayers, between $500 million and $800 million from 
the Federal coffers in legal judgment payments. That works out 
to about $2 million each and every day.
    This discussion draft is a welcomed and positive step 
forward. NARUC applauds Chairman Barrasso and this Committee 
for bringing it forward. We are pleased that it tracks the 
NARUC supported H.R. 3053 that passed the House in a strong, 
bipartisan vote of 340 to 72 last year. I think that is 
important in this environment.
    There are several changes to the current law and the draft 
that are long overdue and crucial to assure the integrity of 
the program and progress on a Federal disposal program, 
including, one, Section 143's pathway for interim storage of 
nuclear waste and linkage of use of such a facility to a 
finding that a final permanent repository decision ``is 
imminent.'' NARUC's 2018 resolution, appended to my testimony, 
endorses both concepts, suggesting that continued storage at 
permanently shut down plants is unacceptable and that no 
interim storage should be allowed unless and until the review 
of the Yucca Mountain license application is underway.
    Two, Section 501's requirements for a final Nuclear 
Regulatory Commission decision approving or disapproving the 
Yucca Mountain license before additional nuclear waste fund 
fees can be collected. The country has invested in excess of 
$15 billion in site characterization. The NRC evaluation 
reports endorses its safety and suitability. The proceeding to 
examine the validity of concerns to Yucca Mountain as a 
repository should be completed.
    Three, Section 501's new mechanism that ensures any nuclear 
waste fund fees are not misdirected to unrelated government 
obligations and provides for the gradual return of the corpus 
of the fund. NARUC specifically endorses this requirement that 
no nuclear waste fund fees can be collected in a fiscal year 
that exceeds 90 percent of the congressional appropriation for 
the fiscal year during which such fees are collected.
    There are a few potential changes to the draft that could 
improve the program referenced in my testimony, including one, 
clarifying that any Department of Energy fee adequacy study 
consider if the approximately $1.5 billion in interest accruing 
annually to the nuclear waste fund is adequate to fund 
projected annual disposal expenditures without reinstatement of 
a fee. Two, incorporating the text of Section 504 of H.R. 3053 
as introduced in the House on June 26th, 2017, as that section 
assured that certain percentages of the $40 billion already 
collected from ratepayers are actually used for the program 
based on certain triggering events. And three, clarifying that 
a precursor for the approval of a particular interim storage 
site is an evaluation of the cost and benefits that 
specifically considers the transportation costs and proximity 
to possible or likely permanent disposal sites.
    I look forward to the Committee's questions, and I applaud 
you for bringing this crucial legislation to the Congress.
    [The prepared statement of Mr. O'Donnell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much, Mr. O'Donnell, for 
your testimony. We are grateful for your 8 years of service in 
the United States Navy, your 22 years of service in the General 
Assembly of Maryland, and your leadership in the Environment 
and Transportation Committee, which is very similar to the 
Committee that we have here. I know you have been a champion of 
the Chesapeake Bay, and this Committee has done a lot of work 
in that effort as well. So thanks so much for being here and 
sharing your opinions.
    Mr. Fettus.

 STATEMENT OF GEOFFREY H. FETTUS, SENIOR ATTORNEY, CLIMATE AND 
    CLEAN ENERGY PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL

    Mr. Fettus. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you very much for the 
opportunity for me to present the views of the Natural 
Resources Defense Council on nuclear waste.
    We thank the Committee for what we hope can be a new 
beginning. With more than 80,000 metric tons in more than half 
the States in reactors moving to decommissioning, we need to 
reset the process. Respectfully, this discussion draft, 
however, will not solve the current stalemate and won't lead 
toward workable solutions.
    For more than 50 years, Congress has offered--and even 
passed--bills that attempt to do what this bill would have us 
do: restart the eco-licensing process, or kick open a door in 
New Mexico for an interim storage site, when that State was 
promised repeatedly no such thing would ever happen. Efforts 
such as these failed in Tennessee, in Kansas, Nevada, Utah, and 
everywhere else.
    Another such attempt restarts the litigation controversy. 
The likely result? Continued stalemate. Seven years ago, a 
bipartisan Blue Ribbon Commission keenly described why past 
attempts failed. That commission, and Ranking Member Carper, 
wisely asserted that we can't keep doing the same thing. 
Congress must create a process that allows any potential host 
State to demonstrate consent, or for that matter, non-consent.
    So rather than spend more of your valuable time on why this 
won't work, and spend more time talking past each other, as so 
often happens at these hearings, I put before you in my 
testimony today a doable, meaningful reset of how we manage and 
dispose of nuclear waste. The solution could be summed up 
simply: give EPA and the States power under well established 
environmental statutes so that they can set the terms for how 
much and on what conditions they could host a disposal site.
    Radioactive waste is stranded because the Atomic Energy Act 
treats it as a privileged pollutant. The Act preempts 
regulatory authority of EPA and the States, exempting 
radioactivity from hazardous waste law, sizable portions of the 
Clean Water Act, et cetera. We don't need to do a statutory 
lesson today. It ignores the vital role States play in 
addressing other environmental pollutants.
    Our government and the Senate is most aware of this, is 
that it is strongest when each player's role is respected. As 
an example, the years of wrangling over how clean is clean for 
contaminated nuclear weapons sites such as those in Washington 
and South Carolina is made exponentially worse by DOE's self-
regulatory status, which the Atomic Energy Act ordains with 
these exemptions.
    The same is true with spent fuel from the commercial 
sector. State consent and public acceptance of potential 
repository sites will never be willingly granted--we saw that 
from the Nevada Senators--unless and until power on how, when, 
and where is shared, rather than decided by Federal fiat. There 
is only one way consent can happen, consistent with our 
cooperative federalism. Specifically, Congress must finally 
remove the Atomic Energy Act's exemptions from our bedrock 
environmental laws. Our hazardous waste and clean water laws 
must include full authority over radioactivity and nuclear 
waste facilities, so EPA--and most importantly, the States--can 
assert that direct regulatory authority.
    It is true, removing these exemptions tomorrow will not 
magically solve this puzzle and create a final repository. But 
it will open a path forward that respects each State, rather 
than offering up the latest one for sacrifice. Because a State 
can say no or yes, and on what terms, and not necessarily be 
subject to hosting the entire burden or shipping all the waste 
across the country through every congressional district, such a 
new regime would allow for a thorough technical review, unlike 
the years of fighting that has been the hallmark of every 
single past process. Just as important, that fundamental 
sharing of power could result in public acceptance of 
solutions.
    We have seen these bills before, but each has been a mirror 
of the last. It is time to try something that has a proven 
track record in addressing other controversial topics. It is 
time to regulate nuclear waste the same way as every other 
pollutant, with EPA and delegated States taking the lead under 
our foundational environmental statutes.
    Thank you again for having me here. I look forward to 
answering your questions.
    [The prepared statement of Mr. Fettus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Barrasso. Thank you very much for joining the panel 
and for your thoughtful testimony today.
    Prior to asking questions, I am asking first unanimous 
consent to enter into the record, No. 1, a Washington Post 
editorial entitled Put Yucca Mountain to work. The nation needs 
it. Second, a Chicago Tribune editorial entitled Revive Yucca 
Mountain: Illinois has more nuclear waste than any other State, 
all of it in temporary storage. And the third, an L.A. Times 
editorial entitled, There's no great answer for nuclear waste, 
but almost anything is better than perching it on the Pacific.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Van Hollen. Mr. Chairman, I apologize, I missed the 
intro, and I just wanted to welcome all the witnesses, but 
particularly Commissioner Anthony O'Donnell from the State of 
Maryland. He is serving on our Commission, but he also served 
with great distinction in the Maryland General Assembly, where 
we both served.
    I apologize for the interruption, I have been bouncing 
around between different hearings, and I thank you for the 
opportunity.
    Mr. O'Donnell. You, too, Senator; thank you for the 
welcome.
    Senator Barrasso. We appreciate the comments, and 8 years 
of naval service as well, the time that he spent in the 
legislature and on the Environment and Public Works Committee 
in the legislature. And then, Senator Van Hollen, I also 
pointed out his commitment to the Chesapeake Bay, an area that 
we on the Committee--you and certainly Senator Cardin, the 
other Maryland Senator--have been focused on as well.
    Mr. O'Connor, Xcel intends to eliminate all carbon dioxide 
emissions from its electricity generation by 2050. That is the 
stated goal. Would your company include advanced nuclear energy 
to achieve that goal, if it is cost competitive? Is it part of 
the process?
    Mr. O'Connor. Yes, Chairman Barrasso, we would. Our focus 
is to be carbon-free by 2050, as you stated, and I stated. We 
would like to be 80 percent by 2030. To achieve that, we need 
our existing nuclear plants, and to achieve 100 percent, we 
think that maintaining a technology neutral or open to all 
technologies, included advanced nuclear, provided it is 
affordable and provides the needs, it is dispatchable in the 
way that our grid needs it, would be useful.
    Senator Barrasso. Will it be more difficult, though, to add 
advanced nuclear energy if Washington doesn't re-establish a 
waste program? Would that make it more difficult for you to do 
the things, your goal, that you are trying to achieve?
    Mr. O'Connor. Yes, Chairman, I believe that not advancing 
fuel in any manner is probably going to create a block for 
nuclear being used as any kind of a form in terms of achieving 
that goal. I think that particularly to be true with some of 
the issues in Minnesota.
    Senator Barrasso. Mr. O'Donnell, the Nuclear Regulatory 
Commission has accepted the Department of Energy's Yucca 
Mountain license application for review. They did that in 2008. 
The law required the Commission to approve or deny the 
application within 4 years.
    The discussion draft amends the law to provide for an 
additional 3 years for the Commission to complete the licensing 
process. Government Accountability Office reported the 
Commission could complete the process within this timeframe.
    Do you agree with these findings?
    Mr. O'Donnell. Senator, I do.
    Mr. Chairman, the Government Accountability Office in 2017 
took a very deep look at the cost to the American taxpayers, 
and took a very deep look at what it was costing us in terms of 
loss and aging out of our experience in these matters. So we 
are losing a lot of people from DOE that are involved, and we 
are losing a lot of expertise from the NRC that is involved. To 
reset the clock is going to make it even worse.
    So they extended 3 years, but they also say, we have to get 
moving on this licensing process. I would just add 
parenthetically that if our commission, as a commissioner 
speaking from Maryland, were to stop a licensing process right 
in the middle of a process for arguably political reasons, that 
is not a fair process for everybody. Both the opponents and the 
proponents deserve an answer.
    Senator Barrasso. Any other reasons why we need a specific 
deadline for the Commission to make their final decision on the 
application?
    Mr. O'Donnell. I think the fact that we are here today with 
these amendments highlights why need a deadline. That reason 
is, failure of a deadline allows stuff to get kicked down the 
road for a long, long time. So it is essential.
    Senator Barrasso. I am going to ask all three of the 
witnesses to respond to this. The discussion draft allows the 
Secretary of Energy to partner with private companies to store 
spent nuclear fuel on an interim basis. That interim storage 
program has to proceed at the same time as the Commission's 
review of the Yucca Mountain license application.
    So I would like you to each respond, if you support a 
requirement that interim storage be connected to a tangible 
action on a permanent repository for nuclear waste.
    Mr. Fettus, we will start with you.
    Mr. Fettus. Thank you, Chairman Barrasso. We certainly are 
supportive of the idea that if there is ever an interim storage 
movement to go forward, which we right now currently don't 
support what is currently on offer, but it would have to be 
tied to a repository.
    In fact, in my written testimony, I suggested that there is 
one model of an interim storage solution that we would see as a 
pilot project that could be useful. That is storing at active 
reactor sites. You already have consent to manage the spent 
nuclear fuel. You already have the trained staff. You already 
have the structural readiness to manage that fuel as well as an 
NRC license.
    Rather than engender the kind of controversy that is 
certainly going to erupt in New Mexico, which is, I believe, as 
united as Nevada is now in opposition to a centralized interim 
storage site, I would strongly urge the Committee to consider 
operating reactor sites. That also keeps the onus on the 
industry where it belongs. And we think that would be a 
functional way to go forward.
    Senator Barrasso. Mr. O'Donnell, any thoughts on this?
    Mr. O'Donnell. The Nuclear Waste Policy Act says the onus 
is on the Federal Government. That is the law.
    Senator Barrasso. Mr. O'Connor.
    Mr. O'Connor. Chairman, I think we believe that the Federal 
Government has to live up to its obligation under the law and 
remove the fuel. I think that being said, we are open to any 
and all venues that advance the fuel, whether that be interim 
storage or that be the Yucca or some combination.
    I think the real message is simply moving it and not 
letting it stay status quo.
    Senator Barrasso. Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    As we revisit this issue, I am reminded of some of the 
values that I try to embrace as a human being, as a leader 
here, and guide me in the decisionmaking that I and my 
colleagues make. One of those is Golden Rule, treat other 
people the way you wanted to be treated. Probably the most 
important rule of all. Next is just to figure out in general 
what is the right thing to do. A lot of times when confronted 
with issues, people say, well, this would be easy or this would 
be expedient. But I say, what is the right thing to do. We have 
all maybe not come to agreement on what is the right thing to 
do.
    I would love to figure that out, I studied economics in 
Ohio State and later on in graduate school. After the Navy, I 
did quite a few years in the Navy.
    Mr. O'Donnell, what did you do in the Navy?
    Mr. O'Donnell. I was a technician and nuclear operator and 
an instructor in the naval nuclear power program.
    Senator Carper. I was a P3 aircraft mission commander, 
chasing Russian submarines in all the oceans of the world.
    Mr. O'Donnell. Thank you for your service.
    Senator Carper. Thank you for yours. It is great to have 
you here.
    One of the things I love to do is just try to figure out 
how to do we harness market forces in order to get to good 
public policy solutions. The other thing I often try to focus 
on is to find out what works and do more of that. Find out what 
works and do more of that. They seem to have figured this out, 
maybe not entirely in France, but I mentioned this in my 
opening statement, they think they have figured out what to do. 
The approach that they use in France, what can we learn, what 
can we take from that as we are at this decision point, trying 
to figure out how to go forward?
    Mr. Fettus, please.
    Mr. Fettus. Senator Carper, I was struck by your idea about 
prisons. Let me quickly respond on France. France actually 
doesn't have a waste program that is working any better. In 
fact, we would submit that it is probably going to be much more 
of a mess than our program is. The reprocessing of spent 
nuclear fuel, just as the Blue Ribbon Commission several years 
ago said, still requires a geologic repository. It creates a 
host of proliferation and security concerns by the creation of 
plutonium. France has no repository at current, they will not 
be able to do away with the MOX fuel, mixed oxide fuel 
assemblies they have waiting to burn in advanced reactors that 
will likely never be built, because they are not cost 
competitive.
    So I would actually be happy to work with your staff and 
talk to anyone on the Committee about why reprocessing is not 
going to be a solution that is going to solve our problems. The 
solutions--and I like that you said we are looking for things 
that actually work. Our environmental laws have worked in an 
extraordinary fashion over the last 50 years. What we have done 
with nuclear waste is taking it outside of that process.
    The original Nuclear Waste Policy Act was a remarkable law 
that balanced powers. But it left out the States. And in so 
doing, what you have had is that lack of consent. And consent 
doesn't just mean a set of incentives, market incentives. It 
wasn't like Nevada wasn't offered the Moon. Every Committee 
member knows that.
    The question is, is that no one would enter into a contract 
if they don't have some sort of power to exact terms for 
consideration. No one would enter into a contract. That is 
where we are left with nuclear waste.
    So what I am trying to impress upon the Committee is, and I 
think you are wisely, when you talked about prisons in your 
opening statement, I think that was, why are some places 
competing for them. Well, because those States or regions can 
actually set the terms by which they can look to their 
communities and say, we can do this safely, we can have these 
jobs, and we can control the manner in which we are setting a 
way forward.
    Nevada has none of that ability, nor would New Mexico.
    Senator Carper. Thank you, very, very much, for your 
response.
    I want to ask Mr. O'Donnell and also Mr. O'Connor.
    Mr. O'Donnell, briefly, can you respond a little bit to 
what Geoff was saying?
    Mr. O'Donnell. NARUC, I don't believe, has a position on 
that. I will check, sir. If we do, I will get back to the 
Committee. Two, I will say that the States have been at the 
table through NARUC and through the Congress, actually. But 
through NARUC, we were brought to the table in 1982 as a 
crucial part of crafting the Nuclear Waste Policy Act. I think 
that is essential to say, to continue to hear that the States 
have been excised out of this process is not true.
    Senator Carper. OK, thank you.
    Mr. O'Connor, please, a response, if you will.
    Mr. O'Connor. Could you repeat the question?
    Senator Carper. Respond to what you heard from Mr. Fettus, 
here, especially, and also some thoughts if you have any on how 
do we incent other States to become repositories for spent 
fuel.
    Mr. O'Connor. Well, I think that as far as consent, my view 
and our company's view and our customers' view would be 
certainly, residents, communities, and States should have their 
issues and their voice, and it should be heard. I don't know if 
one group is more important than another. I don't think so. I 
think our many other States and communities, our Indian 
community as an example, obviously did not give consent to the 
fuel being stored next to them. So I believe there are 
processes that we should use to vet those. I think they exist 
for us to be able to work through it and make prudent 
decisions.
    As far as reprocessing, again, I think that is a 
possibility, as you said. There is a fair amount of energy that 
remains in the fuel, and it could be used for new reactors or 
other types of venues. I think that is true. But without moving 
the fuel first, I don't see how reprocessing is a discussion 
yet. First, we have to advance it from where it currently is to 
a location that can be afforded, I will say, those 
opportunities to look at.
    Senator Carper. All right; thank you all.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chair. I always listen 
carefully, because you answered a couple of questions along the 
way. I was hoping there might have been more enlightenment from 
France, since they have invested so heavily in nuclear energy. 
It sounds like they may not be too much farther down the trail 
than we would be when it comes to long term solutions on waste.
    Mr. Fettus. Respectfully, they are not, Senator.
    Senator Braun. OK, that is good to know, to discount that. 
And reprocessing, I was hoping, was something that there was 
better news with as well.
    So I am going to--Mr. Fettus, I want to ask you this. You 
said geological repository. To me, implicit in that is that 
there are only a limited number of places that can actually 
store spent fuel, due to the geology of where you would store 
it. Is that true, or did I misinterpret that?
    Mr. Fettus. You didn't misinterpret that, that a geologic 
repository has certainly been the consensus answer, I believe, 
from the environmental community to the industry for literally 
decades. The precise number of places that could potentially 
isolate the waste for the length of time it is dangerous, as 
Senator Cortez Masto described in her testimony this morning, 
that process, looking and trying to find all of those sites, 
was essentially sideswiped or done away with back in the mid-
1980s, when I was in high school, long, long ago.
    We haven't even really done the technical analysis 
nationwide for the potential technical sites that might be 
suitable.
    Senator Braun. What would your best guess be, since it 
looks like other than maybe Nye County, Nevada, as being 
willing to do it, what percentage of our surface area in this 
country, would it be closer to 5 or 10 percent that would be 
geologically--or do we not know that?
    Mr. Fettus. Honestly, Senator, I would defer to, going back 
to look at the history of the geologic studies that were done 
in the 1980s, and starting at that point. I wouldn't hazard a 
guess right now.
    Senator Braun. If that is information that any other 
panelist could give, I think that would be something that is 
important. If we are talking about a limited amount of options 
to begin with, and most of those options people not wanting it, 
we have, to me, a significant issue. So if you could glean that 
information, anyone, I think it would be good for me and other 
Committee members to have.
    So is there any other place, other than Nye County, Nevada, 
that has shown a willingness to consider it? I am assuming that 
is the county where Yucca Mountain is, is that true?
    Mr. Fettus. That is the county in Nevada, Senator. If you 
take the time with my testimony that I hope you and your staff 
can do, one of the things, one of the things that we are trying 
to articulate is that right now, it is not about one place, or 
is there another site. If it is not Yucca Mountain, where can 
it go? That is not the question right now that I think the 
Senate should spend its time trying to find out.
    The Senate can't find and pick a site. That is how we got 
into this mess in the first place. What we need to do is set up 
a structure where people can say yes, and they can do so 
consistent with any other environmental pollutant that they 
might take in their community. We have hazardous waste disposal 
sites around the country. We can do this. But we can't do it 
without a process where people can set those terms and have 
direct regulatory authority. And that model is an environmental 
law.
    Senator Braun. Good point.
    Final question would be, when it comes to using nuclear 
energy for electric power generation, and when it comes to the 
disposal of the waste, has anything changed technologically 
that you are aware of from, say, 25, 30 years ago to change the 
dynamic that it is kind of an inherently difficult form of 
energy due to all the risks associated with it? Has anything 
out there changed in France, other places where they use this 
more consistently than our shutting the industry down because 
we are befuddled by all the problems associated with it? Has 
anything changed?
    Mr. Fettus. No. It is a profoundly----
    Senator Braun. More than it is here?
    Mr. Fettus. It is a challenge, that you have to try to find 
places that can isolate it for a million years. It is a 
profoundly deep technical challenge.
    Senator Braun. Thank you.
    Senator Barrasso. Thank you, Senator Braun.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Illinois is indeed home to more nuclear reactors than any 
other State in the Nation. Eleven operating, three 
decommissioned, 7,500 tons of spent fuel stored in pools, and 
another 900 tons in dry casks. Four more plants, pools, are 
running out of room. So we need to find a solution.
    We are struggling to deal with the decommissioning of 
nuclear power plants that have become de facto interim storage 
sites for the stranded nuclear waste. Without consent or 
compensation, these communities and plants are paying the price 
for the Federal Government's failure to find a permanent 
solution to spent nuclear fuel.
    Last Congress, I offered the STRANDED Act, to provide 
impact assistance and economic development incentives to 
communities burdened with storing stranded nuclear waste. My 
bill has three components. First, it establishes the Federal 
task force to identify existing public and private resources 
and funding that could benefit affected communities. This 
policy is also included in today's bill.
    Second, it creates economic impact grants that would 
provide financial assistance to offset the economic and social 
impacts of stranded nuclear waste and affected communities. 
Third, my bill extends tax credits that will bring investment 
to these stranded communities.
    Of the three policies in my bill, the most critical 
component is the second. That is to compensate communities who 
are acting as interim storage sites for nuclear waste now.
    Mr. Fettus, do you agree that communities like Zion, 
Illinois--which is one of these sites--Zion, Illinois, should 
be compensated now for storing waste?
    Mr. Fettus. Yes.
    Senator Duckworth. Thank you.
    Right now, my State has one decommissioned nuclear power 
plant; in a few years it could have even more, several 
actually. Would the kind of proposal you outlined in your 
testimony affect what happens in my State?
    Mr. Fettus. We think it would. It would give the State much 
more control over the terms by which that nuclear waste is 
going to remain in your State, which by any measure, it is 
going to be in the State for a long time, especially as you 
have all the operating reactors that Illinois has.
    Right now, States can essentially, as California sees in 
the San Onofre situation, they have no real authority to affect 
that. What we outline could change that.
    Senator Duckworth. So I look at these, and even if we say, 
Yucca Mountain, magically, we are going to proceed with it, it 
is still going to be a matter of decades before this fuel could 
be moved.
    Mr. Fettus. Yes.
    Senator Duckworth. In the meantime, it sits there in Zion, 
Illinois. Nobody is building. It is in a lakefront on Lake 
Michigan, beautiful piece of property, and there is nothing 
they can do, and nobody wants to move there; nobody wants to 
buy a house in Zion. And yet there are very good jobs at the 
plant that is there, and people drive in to hold these jobs, 
but they drive from a long way away because nobody wants to buy 
property there.
    So I think it is common sense that we would make these 
payments to the local community, since they are now stuck 
holding this nuclear fuel, that the Federal Government has 
failed to live up to in terms of dealing with it.
    I think we can both agree, Mr. Fettus, that it is critical 
that our existing nuclear fleet operates also as safely as 
possible.
    Mr. Fettus. Yes, that is NRDC's position.
    Senator Duckworth. I have a bill that would fix a drafting 
error that occurred in the Energy Policy Act of 2005. It 
clarifies that whistleblower protection rights for DOE and NRC 
employees may be enforced as Congress intended. Do you agree 
that whistleblower protections, which are disputed at DOE, are 
of critical importance to the nuclear industry?
    Mr. Fettus. Yes, I do.
    Senator Duckworth. Do you want to elaborate a little bit 
more on what you were saying about the consent piece? I like 
what you said about the fact that we need to change the model 
from forcing this fuel onto someone to compensating the people 
who are already holding it, and coming up with a way for people 
to say yes.
    Mr. Fettus. Figuring out a pathway forward, Senator, I do 
appreciate the conundrum Congress is confronted with. I think 
this is one of the first paragraphs, in almost every testimony 
I have written on nuclear waste, this is a devilish challenge, 
a technical challenge, to science alone. Then you put the 
interplay of politics on top of it, and it gets turned into a 
hot potato that makes Chairman Barrasso's job, or Ranking 
Member Carper's job, extremely difficult, and in fact, every 
member of the Senate.
    But to keep trying to force a square peg into a round hole 
simply won't work. To give you a sense of scale, when you said, 
if we magically had Yucca Mountain be licensed and go forward, 
it would still be decades for fuel across the country to get 
moved at various times. That is not going to happen, though. 
The licensing process, if this bill were to become law, would 
go forward, and then there would be contentious litigation for, 
we submit, despite any deadline, decades. And if they truncated 
the litigation, they would simply open themselves up to legal 
challenge on that issue.
    So we can't urge strongly enough, there is a better way to 
do this that is consistent with our environmental laws.
    Senator Duckworth. Thank you, Mr. Fettus.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank all of you.
    I represent one of the six States that prohibits nuclear 
power generation. I live in West Virginia, within its borders. 
Pending a final permanent Federal waste storage solution, so 
West Virginia conditions approval of a nuclear power plant on 
making economic sense for the taxpayers. I don't see this in 
the future, since we have a lot of natural gas development in 
our State as well.
    So I don't have the first hand knowledge, although I have 
toured the nuclear plant in Michigan, on nuclear energy, but I 
do believe we need to keep nuclear energy as part of our energy 
mix. I think it is absolutely essential for our baseload 
generation and have been very supportive of that.
    I wanted to ask a question first of all, off of what 
Senator Braun said to Mr. O'Connor and Mr. O'Donnell. I think 
Mr. Fettus sort of answered the question. I wanted to see 
consistency here, asking, since the Act was first passed in 
1982, and Yucca was designated in the late 1980s, the 
technology of actually storage, according to what I understood 
Mr. Fettus to say, has not technically changed over that period 
of time. Could you talk about that a little bit? Is it going to 
get any easier, is my question.
    Mr. O'Connor. Senator, are you referring to canister 
methodology of storing fuel at this point?
    Senator Capito. I am just saying, has the technology 
changed. I went to the reprocessing plant in France, I have 
been there. But are we advancing in the technology so we can 
find a solution to this and make it easier? Or is it pretty 
much the way it was 30 years ago?
    Mr. O'Connor. I would agree that the canisters and the 
storage that we currently do today is not significantly 
different. Canisters have become a little bit, I would say, 
different in design, but fundamentally they are principally the 
same.
    Senator Capito. Mr. O'Donnell.
    Mr. O'Donnell. Thank you, Senator. I have nothing really to 
add on that. I think it is essentially the same.
    Senator Capito. That is my understanding. I just wanted to 
make sure I had that correct.
    I also serve on the Senate Appropriations Committee, and 
another source of consternation with regard to nuclear waste 
storage policy is how it affects the Energy and Water 
Appropriations bill. The funds coming into the waste fund are 
mandated by law to be paid by utilities generating nuclear 
power, are mandatory, but their disbursement is treated as 
discretionary. This is getting into the technicalities that you 
would understand as a former member of the legislature, how 
convoluted this can become. And so it is competing with other 
programs like the Corps of Engineer programs, and our national 
lab systems and the Energy and Water Appropriations bill.
    So this discretionary hook is also why a handful of 
Senators can block this. Meanwhile, the judgment fund, which 
Commissioner O'Donnell, you spoke about this, represents $2 
million in payments by the taxpayers per day to compensate 
utilities for the Federal Government doing nothing. And it 
remains mandatory spending.
    So with all of that screwball accounting that could 
probably only occur in Washington, I would like to ask 
Commissioner O'Donnell and Mr. O'Connor, since it is your 
ratepayers footing the bill, with nothing to show for it, do 
you have a view on this state of affairs in terms of the 
funding?
    Mr. O'Connor, do you have a comment?
    Mr. O'Connor. Our customers continue to foot the bill for 
storage. As I said before, there isn't anything that is 
happening.
    One unique thing about Minnesota is that in addition to 
just the cost for the actual storing of the fuel, there is 
added cost that our customers pay per cask at each facility. It 
is $500,000 per cask at Prairie Island and $350,000 at 
Monticello.
    Senator Capito. Is that the purchase price, or is that the 
storage price? Is that every year?
    Mr. O'Donnell. That is just an every year storage cost that 
we provide the State and a renewable development fund. And our 
customers pay for that. That is $32.5 million per year right 
now. That is unacceptable, in my mind. So that means we must 
move things forward.
    Senator Capito. Right.
    Mr. O'Donnell, do you have a comment on that?
    Mr. O'Donnell. The only thing I would say, Senator, is that 
the customers have paid for this time and again. They paid for 
the original storage, they paid to re-rack the spent fuel 
pools, they paid to build the interim storage, the SCs onsite. 
They continue to pay, not the least of which is the $41 
billion, $40 billion in the Nuclear Waste Fund.
    Senator Capito. Yes, with nothing changed. And the map that 
you see of where everything is being stored now, it is pretty 
compelling in terms of not just footing the bill, but it is 
still sitting there and accumulating, I would imagine, at the 
same time.
    Thank you very much, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Markey. Thank you, Mr. Chairman.
    The Commonwealth of Massachusetts contains more than 700 
metric tons of spent nuclear fuel. Some of that radioactive 
waste sits in 16 dry casks in Rowe. They are remnants of the 
Yankee Atomic Plant that stopped operations in 2007. After the 
Pilgrim Nuclear Power Station completes its decommissioning 
process, which is set to begin at the end of this month, there 
will be 61 dry casks full of nuclear fuel sitting in Plymouth, 
Massachusetts.
    Dry casks are more secure than spent fuel pools, which are 
a disaster, waiting to happen. That is why I have repeatedly 
introduced the Dry Cask Storage Act, an effort joined by 
Senator Gillibrand and Senator Sanders.
    Mr. Fettus, should we ensure that all decommissioned plants 
move their spent fuel in dry casks as soon as the fuel has 
cooled enough to do so?
    Mr. Fettus. Yes.
    Senator Markey. Excellent answer. The Pilgrim 
decommissioning process and the proposed Nuclear Regulatory 
Commission decommissioning rule both ignore the need for 
environmental impact analysis. The nuclear industry is just 
running roughshod over transparency and environmental 
protections.
    While the discussion draft of this bill does not focus on 
onsite nuclear waste storage, it builds upon the NRC's refusal 
to seriously consider the environmental and health concerns of 
spent fuel. This draft does not address environmental and 
safety criteria in its proposal for interim storage facilities, 
and it blocks key parts of the environmental review for Yucca 
Mountain.
    Mr. Fettus, shouldn't the environmental and public health 
impacts of storing nuclear waste be at the forefront of our 
considerations?
    Mr. Fettus. Yes.
    Senator Markey. Now, the Pilgrim decommissioning plan as 
presented to the Nuclear Regulatory Commission, assumes that 
all spent fuel will be fully removed from the site by 2062. 
That is the date being used for all cost estimates. So if that 
deadline isn't met, and the decommissioning process will break 
its budget, potentially leaving the towns to foot the bill, Mr. 
Fettus, how likely is it that the spent fuel from Pilgrim would 
be moved to Yucca Mountain by 2062?
    Mr. Fettus. I think it is very unlikely that it will be 
moved to Yucca Mountain, because I would suggest it is never 
going to be moved to Yucca Mountain for the reasons Senators 
Cortez Masto and Rosen outlined today.
    Senator Markey. And I agree with you, 100 percent.
    So, Mr. Fettus, by attempting to move us deeper into the 
Yucca Mountain fantasy land, do you think this discussion draft 
brings us further away from a permanent storage solution for 
nuclear waste than that which would allow us to actually move 
waste out of these closed plant sites?
    Mr. Fettus. Yes. In fact, I would suggest, Senator, and I 
appreciate this line of questioning, that the outline of the 
concepts that I have in my testimony today would potentially 
get us farther faster than the 2048 deadline that the Energy 
Department has been bandying about for several years.
    Senator Markey. So the NRC has refused to answer my 
questions about whether the Commonwealth or surrounding towns 
might be left footing the bill for decommissioning costs, like 
storage, if the licensee can't pay. Mr. Fettus, what could it 
mean for costs to the town or to taxpayers if we don't develop 
a real plan to address nuclear waste storage?
    Mr. Fettus. I think those costs could be significant, and 
if anything were to ever go wrong, they could be astronomical.
    Senator Markey. They can be astronomical.

[[Page 115]]

    Mr. Fettus, have the towns and taxpayers in the 
Commonwealth provided consent to have nuclear waste stored 
indefinitely in their home town?
    Mr. Fettus. Not that I am aware of.
    Senator Markey. No. It is a decision made by the Federal 
Government. We don't want every decommissioned nuclear site to 
become a permanent repository for radioactive waste. We don't 
want to be left holding an ongoing endless bill for storage 
costs, emergency response costs, and radiological monitoring 
costs. Continuing to pretend as though Yucca Mountain is a 
real, viable option for the permanent storage of nuclear waste 
from Massachusetts and every other community where this type of 
waste currently resides only makes it more likely that it will 
be these communities which will be left holding radioactive 
receipts. We need a real, honest dialogue about nuclear waste 
storage, and that conversation won't lead us to Yucca Mountain.
    Moreover--and this will be my final question, if I may, Mr. 
Chairman--this discussion draft pursues the development of 
interim nuclear waste storage sites, which leads to two 
dangerous potential outcomes. First, if we don't get a real 
long term solution, the interim sites could become de facto 
permanent repositories, an unacceptable outcome. Second, if we 
do eventually develop a permanent repository, interim storage 
means we will have to move dangerous radioactive waste twice. 
That is twice as much risk that something could go wrong along 
the way.
    Mr. Fettus, do you think the transportation and safety 
issues should be considered as part of any nuclear waste 
management plan?
    Mr. Fettus. Yes.
    Senator Markey. And do you think that communities that 
might be exposed to a transportation related nuclear waste 
accident should be consulted as part of a consent based nuclear 
waste management process?
    Mr. Fettus. Absolutely.
    Senator Markey. Otherwise, twice we will be putting mobile 
Chernobyls out on the highways of America, driving nuclear 
waste across our country, through communities that will not 
have given consent, and without proper security that has been 
put in place.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Before turning to Senator Cramer, I note in today's USA 
Today front page story, in terms of nuclear power for the 
future, Some 2020 Dems warm up to nuclear, Clean-energy option 
finds unlikely support. This is the future that we are talking 
about, and without objection, I will submit this for the 
record.
    [The referenced information follows:]

[[Page 116]]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



[[Page 117]]

    Senator Cramer. Thank you, Mr. Chairman.
    Thanks to all of the witnesses.
    I apologize for being so late. Wednesday is my day, the day 
that I have the great honor and privilege of presiding over the 
Senate. So I have to remind myself often that the inconvenience 
is worth it. But thank you all for being here today.
    I want to follow up a little bit on something that Senator 
Markey was referencing, as he was referencing the fantasy of 
Yucca Mountain. Do we forget that the Nuclear Waste Policy Act 
is the law of the land? There is a law that was passed, and we 
have been neglecting for a few decades.
    I will use that opportunity to slide into some more North 
Dakota specific stuff, Mr. O'Connor, because I know you are 
familiar with this. I was a utility regulator for nearly 10 
years in North Dakota. Xcel Energy is our largest utility in 
North Dakota, and our ratepayers have been paying in for 
decades.
    Mr. O'Connor. Yes, we have.
    Senator Cramer. I was on the commission, along with 
Commissioner Tony Clark at the time, when the lawsuit succeeded 
and we had to redirect several million dollars to North Dakota 
ratepayers for their burden of paying into something for which 
they were getting nothing. So I remember that redirection. 
Since leaving the commission and coming to Congress, I think we 
have probably redirected double that much again. This is no way 
to run an organization, not your organization, but our much 
larger organization.
    So I am quite familiar with the fund, and the broken 
promises, the bill of goods that the ratepayers have been given 
over the last several decades, and am anxious to get to not the 
fantasy of storage, but hopefully a conclusion one day that 
makes some sense. And I hope that we can come to it soon.
    There is all the talk, of course, in this town and 
throughout the country, about clean energy. Xcel Energy 
certainly has been committed to that. You have invested lots of 
money in my State and other places in renewable fuels. But if 
we are going to get to the type of goals that many people 
aspire to, Mr. O'Connor, can you do that at Xcel without your 
nuclear fleet? And again, North Dakotans enjoy the reliability 
of it.
    Mr. O'Connor. No.
    Senator Cramer. No. Right. So I want us to continue to have 
the discussion. I don't believe that it is a fantasy.
    You have invested lots of money in wind and solar and other 
renewables. What percentages--I don't know the answer to this--
what percentage of your generation is renewable?
    Mr. O'Connor. I believe the renewable portfolio is around 
15 percent at this point. We are planning, obviously, as you 
are aware, to replace our coal facilities with renewables, and 
using nuclear as, I will call it, a backbone for that 
transition. Our intent is to be up into the 50, 60 percent in 
renewable resources.
    Senator Cramer. And nuclear being the main baseload, then, 
where we probably can't have gas?
    Mr. O'Connor. Nuclear at this point needs to be part of 
that component. I think we are open to all other technologies 
that could be dispatchable that are carbon-free. In the 
meantime, I think the reality is gas would still probably be 
part of that equation.

[[Page 118]]

    Senator Cramer. I am going to resist spending a lot of time 
on ground that has no doubt been plowed in my absence, Mr. 
Chairman, and I don't think it is necessary to repeat it, other 
than to again, make my North Dakota illustration and my point. 
But I would remind my colleagues and others, last year in the 
House, when I was in the House, we did pass the Nuclear Waste 
Policy Amendments Act, 340 to 72. That is pretty good 
bipartisan action. A number of Republican and Democratic co-
sponsors of the legislation, of course, I was on the Energy and 
Commerce Committee and was a co-sponsor of that.
    I want us to be more aspirational than to think this is 
somehow a fantasy. This isn't a fantasy, this is really 
important stuff. It is important to the ratepayers, the 
taxpayers, to the environment. It is important to the economy.
    And with that, again, thank you all for your appearance, 
and I yield back.
    Senator Barrasso. Thank you very much, Senator Cramer.
    Senator Carper.
    Senator Carper. I am up here reading the USA Today article 
that the Chairman referenced.
    [Laughter.]
    Senator Carper. It reminds me--I live in Delaware, I have 
the privilege of representing Delaware. We are the lowest lying 
State in America. Our State is sinking, fortunately not too 
fast, but we are sinking. The oceans--and our neighboring 
Marylanders know about this--the oceans are rising around us, 
and it is not a good place to be. So we take the issue of 
climate change and global warming very, very seriously. I think 
it is the most serious threat we face on this planet.
    So the idea, if we could somehow create our electricity 
without producing more carbon dioxide or have technology to 
actually suck carbon dioxide out of the air, we are trying to 
do those kinds of things, that would be a good thing. But as 
helpful as nuclear energy is in terms of not making climate 
change any worse, in fact it is helping us on that problem, 
huge problem, we have this problem with the disposal of the 
spent fuel.
    It is not often we have a second chance in life, to get 
stuff right. We didn't get it right back in the 1980s. I think 
given the reality of climate change, the threat it poses 
literally to our planet, we have a chance to get it right, and 
if we are smart about it, provide economic opportunity for 
communities where they like to have that kind of opportunity 
with the kinds of protections that they need and help preserve 
our planet.
    President Macron from France was here about a year ago, he 
spoke at a joint session of Congress. One of the things he 
mentioned was that this is the only planet we are going to 
have. There is no Planet B. And so we are trying really hard to 
figure out how to get it right this time, and we appreciate 
very much your presence here and providing some great guidance 
for us. I appreciate the leadership that the Chairman is 
showing in trying to restart the conversation, hopefully with a 
better ending.
    One question for Mr. Fettus to close out, and then I am 
going to ask all three of you to sort of give me a 
recommendation on the

[[Page 119]]

Federal commission that has been recommended by a Blue Ribbon 
panel a couple of years ago.
    Mr. Fettus, back to you, consent based approach. It is my 
understanding that previous mechanisms for finding voluntary 
sites for nuclear spent fuel have been successful in this 
country. One of those is a place down in New Mexico, Waste 
Isolation Pilot Plant. Hasn't gotten a lot of attention. There 
is an acronym for it called WIPP; I will not use that.
    Mr. Fettus. I am familiar with WIPP, Senator.
    Senator Carper. I am sure you are. However, that was for a 
different type of facility than what we are talking about here 
today.
    My understanding is, I don't know a lot about this 
facility, but I understand that it takes mid-level defense 
waste; is that right?
    Mr. Fettus. Transuranic defense waste, yes, Senator. Kind 
of like silver at the pump.
    Senator Carper. OK. And in fact, to my understanding, the 
State of New Mexico and the community agreed to the facility 
with the understanding that it would not accept high level 
nuclear waste in the future.
    Just very briefly, would you provide any takeaways from the 
New Mexico experience on what we can replicate in a consent 
based approach for a high level, high level spent fuel 
repository, and any cautions on maybe what cannot be 
replicated, please. Just very briefly.
    Mr. Fettus. Very briefly, Senator. Thank you for the 
question.
    To the extent that there is public acceptance of the WIPP 
facility in New Mexico after all these years, crucial to that 
is the existence of the State's hazardous waste permitting 
authority for the hazardous waste portion of the waste at the 
site. The State still has no regulatory authority over the 
radioactivity, but they have authority over the hazardous waste 
portion.
    So the State has some measure of control, and it can, after 
the explosions and fires of 2014, the State can require a 
shutdown and protect its citizens, unlike in other nuclear 
facilities, where States have no regulatory authority. So if 
there is something to replicate that is at the root of our 
suggestions, it is that. It is expanding that.
    Senator Carper. Thank you.
    And for the entire panel, the Department of Energy's record 
overall has not inspired a whole lot of trust in our Nation's 
nuclear waste management program. For years, I have heard--
maybe you have, too--calls from various stakeholders, including 
those in the nuclear industry, for a new federally chartered 
organization and incorporation to be created that is dedicated 
solely to dealing with our nuclear spent fuel.
    The creation of a new nuclear waste, Federal organization, 
I think was one of the recommendations that came out of the 
Blue Ribbon Commission on Nuclear Waste launched during the 
Obama administration.
    Just very briefly from each of you--we will start with you, 
Mr. O'Connor, if you would, briefly, we would like to hear your 
thoughts on that idea that I just described. Could taking 
nuclear waste out of DOE's hands insulate the issue from the 
political proc

[[Page 120]]

ess and improve the consent based approach, should Congress 
consider taking a step?
    Mr. O'Connor.
    Mr. O'Connor. Senator, I think that recommendation is one 
that should be explored, or at least considered. I think having 
dedication toward advancing used fuel can only be a good thing.
    I also believe that if it provides the dedication, I think 
it can help probably work through many of the items that were 
discussed here today, or at least maybe assist in processes to 
make that happen.
    One caution, though, is that another agency can tend to 
grow very quickly and become expensive. So what I would 
probably offer is, controls or mechanisms to not let it become 
not that much different than we currently have today.
    Senator Carper. Thank you.
    Mr. O'Donnell.
    Mr. O'Donnell. Thank you, Senator. I would just say this. 
It is clear that the defunding of the Office of Civilian 
Radioactive Waste Management was crippling to DOE's ability to 
carry out this mission. So on one hand, the law says under the 
Nuclear Waste Policy Act, here is what you have to do, DOE. But 
then beginning in 2008, we defunded the program, crippling it. 
You can't have it both ways. You can't have a mandate to do 
something and then cripple them by taking the money.
    NARUC is not opposed to creating a new agency, essentially. 
But what is crucial is that we act soon so that the Federal 
Government does not age out its crucial scientific knowledge in 
these matters. That is what is happening. I would implore you 
to do something quickly.
    Senator Carper. All right; thank you.
    Mr. Fettus. I don't disagree with my colleagues here. I 
think it is an idea worthy of exploring. But I think we would 
have to get the consent right first.
    Senator Carper. Good. Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Thanks to all of you for being here. We are grateful for 
your time and your testimony.
    Other members of the Committee may submit questions for the 
record, so the hearing record will remain open for 2 weeks. But 
I want to thank you for being here, thanks for your time, 
thanks for your thoughtfulness on this very important topic.
    This hearing is adjourned.
    [Whereupon, at 11:33 a.m., the hearing was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
